BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

August 13, 2020
Scott S. Harris, Clerk
Supreme Court for the United States
1 First Street, N.E.
Washington, D.C. 20543

RE:

Lloyd Harris v. Maryland
Docket No. 20-101

Dear Mr. Harris:
A Petition for Writ of Certiorari filed on August 3, 2020, has been received by
this office in the above-referenced case. Please be advised that, unless the Court
orders otherwise, Counsel for Respondent does not intend to respond to the petition.
Attached is the waiver and appearance form to be filed on behalf of the
Respondent.

Respectfully submitted,,
/S/
Carrie J. Williams
Assistant Attorney General
Criminal Appeals Division
CC:

Amir H. Ali, Megha Ram
Roderick & Solange Macarthur Justice Center
777 6th Street NW, 11th Fl.
Washington DC, 20001

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

